I

I

%!

No.
IN THE SUPREME COURT OF THE UNITED
STATES
JOHN HENRY RYSKAMP,
Petitioner,

vs.
COMMISSIONER OF INTERNAL REVENUE,
Respondent

On Petition for Writ of Certiorari
To the Ninth Circuit Court of Appeals

i

PETITION FOR WRIT OF CERITORARI
John Ryskamp
1677 Arch St.
Berkeley, California 94709
(510) 848-6898
philneo2001@yahoo.com
Petitioner
I

FILED
JAN 0 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

RECEIVED
JAN 1 2 2021
9f&Cf»gFJoH»ER<tLSf

1

QUESTIONS PRESENTED FOR REVIEW
Introductory Statement
In Janus v. AFSCME, 138 S. Ct. 2448 (2018),
Justice Kagan correctly noted in her dissent that
the “fee” is a tax on free speech. Janus is a tax
case, because the “fee” is a tax according to criteria
established by this Court, as Justice Kagan well
understood. Applying Janus, the issue in this case
is whether the U.S. tax system is, for
Constitutional purposes, identical to the tax system
described by this Court in Janus. If it is, then it
contains the
same prohibited individually
enforceable protected speech component which
caused this Court to strike down the Janus “fee.”
In which case, three questions arise for this Court:
The Questions
1.
Under Janus v. AFSCME, does the
U.S. tax system violate U.S. Const, amend I
because it contains a prohibited individually
enforceable protected speech component?
Under Janus v. AFSCME, does the
2.
U.S. tax system violate Article I, Section
8, Clause 1 because it legislates for the general
welfare?
Under Janus v. AFSCME, does
3.
taxation enjoy a higher level of scrutiny than
minimum scrutiny?

<■

11

TABLE OF CONTENTS

Page
Petition for Writ of Certiorari

1

Opinions Below

1

Jurisdiction

1

Statement of the Case

2

Reasons for Granting the Petition

3

I.
The U.S. tax system violates
U.S. Const, amend I because it
contains a prohibited individually
enforceable protected speech component.

3

II.
The U.S. tax system violates
Article I, Section 8, Clause 1 because
it legislates for the general welfare.

4

III.
Taxation enjoys a higher level of
scrutiny than minimum scrutiny.

8

Conclusion

9

Appendix A- Order of the United States
Court of Appeals for the Ninth Circuit
(November 9, 2020)

la

Appendix B: Memorandum of the United
States Court of Appeals for the Ninth
Circuit (August 13, 2020)

4a

Appendix U Order and Order of Dismissal

V

111

for Lack of Jurisdiction of the United
States Tax Court (August 1, 2019)

4a

✓

IV

TABLE OF AUTHORITIES
CASES
Janus v. American Federation
of State, County, and Municipal
Employees, Council
31, 138 S. Ct. 2448 (2018)

2 et seq.

CONSTITUTIONAL PROVISIONS
U.S. Const, amend I—Congress
shall make no law respecting an
establishment of religion, or prohibiting
the free exercise thereof! or abridging
the freedom of speech, or of the press!
or the right of the people peaceably
to assemble, and to petition the
Government for a redress
of grievances.

3 et seq.

Article I, Section 8, Clause 1—The
Congress shall have Power To lay and
collect Taxes, Duties, Imposts and
Excises, to pay the Debts and
provide for the common Defence
and general Welfare of the
United States....

4 et seq.

UNITED STATES CODE
26 USC 6330

2 et seq.

1
PETITION FOR WRIT OF CERTIORARI
John Ryskamp petitions for a writ of
certiorari to review the judgment of the United
States Court of Appeals for the Ninth Circuit.

OPINIONS BELOW
The Order of the United States Circuit Court
of Appeals for the Ninth Circuit denying the
petition for rehearing en banc (App. A, la), the
Memorandum of the United States Court of
Appeals for the Ninth Circuit (App. B, 2a-3a), and
the Tax Court’s Order and Order of Dismissal for
Lack of Jurisdiction (App. C, 4a-8a), are
unreported.
JURISDICTION
The order denying petition for rehearing en
banc was entered on November 9, 2020. App. B,
2a-3a. This petition is filed within 90 days of that
date. Rule 13.3. This Court’s jurisdiction rests on
28 U.S.C. Section 1254(1).

2
STATEMENT OF THE CASE
The Commissioner issued a standard letter
to Petitioner—an enforcement action in the form of
Notice LT16—in enforcement of alleged income tax
due. Petitioner asserted in the Tax Court that
enforcement was unconstitutional because the
United States tax system was, for Constitutional
purposes, identical to the Janus “fee” scheme,
suffered the same protected speech disability and
so was unconstitutional, and, in addition,
constituted legislating for the general welfare in
violated of the “tax and spend” provision of Article
I, Section 8, Clause 1. For these reasons, the letter
constituted, for purposes of the Tax Court’s
jurisdiction, a Section 6330 notice of determination.
The Commissioner asserted that the Constitutional
issues could not be addressed because the Tax
Court lacked jurisdiction, in that the Notice was
not one of the notices providing the Tax Court with
jurisdiction.
The Tax Court upheld the Commissioner.
On appeal, Petitioner reasserted the arguments
made in the Tax Court. The Ninth Circuit refused
to reach the Constitutional issues presented, and
simply rested its decision on the same basis as the
Tax Court, that the Notice was not a notice of
deficiency or a notice of determination.

3
REASONS FOR GRANTING THE
PETITION
The U.S. tax system violates U.S. Const.
I.
amend I.
In a petition to the Tax Court alleging a
protected speech violation in the tax system, a
letter constituting an action in enforcement of a
tax, suffices to satisfy the Section 6330 requirement
of a Notice of Determination. Janus is without
precedent in finding an individually protected
speech component in the “fee” scheme of that case.
Previously, no tax had been found to contain such a
speech component, which necessarily made
taxation an individually enforceable right. The
function of the present petition is to require the
Commissioner to promulgate a tax system which
does not contain the Janus prohibited individually
enforceable protected speech component.
In Janus, this Court went out of its way to
show that the Janus “fee” was not simply part of a
system which included advocacy. This Court made
it clear that the Janus “fee” system effected
results—that is, the system was government, and
not simply an effort to influence what government
does.
Now the question inevitably arises—
whatever status such a system enjoys under the
Illinois Constitution—whether the U.S. tax system
is Constitutionally identical to the Illinois system,
and therefore unconstitutional?
This is the
question Justice Kagan dreaded in her dissent,
because it is inevitable that, under the brief and
uncomplicated facts and holding of Janus, the U.S.
tax system would be implicated by the Janus case.
This has now occurred.

4
Almost needless to say, there is no principled
way of distinguishing the U.S. tax system from the
Janus “fee” system. The “fee”—which is a tax, and
which contains the offending protected speech
component—goes to government and then is
handed out by government to a system which
effects general welfare results. The free speech
violation highjacks the entire government, as this
Court pointed out. That is exactly the U.S. tax
system.
There is no difference, nor has any
commentary, inside or outside of the Janus case,
indicated any difference.
The U.S. tax system violates Article I,
II.
Section 8, Clause 1 because it legislates for the
general welfare.
Under Janus, whatever the United States
enacts or enforces, pursuant to its Clause 1 tax and
spend power, treads on the individually enforceable
protected speech component. This is also what
Justice Kagan foresaw. However, she did not point
out the conclusion, which is that under Janus, the
United States unconstitutionally legislates for the
general welfare.
Need one even rehearse the
detailed analysis she provided showing exactly why
this is so? And she knew well that there is “no
sugarcoating” the implications of Janus—its
implications are vast and profound. Again, the
processes and procedures by which the State of
Illinois effects general welfare results, do not differ
substantially from those of the United States.
The difference is that under the U.S.
Constitution, the United States is prohibited from
legislating for the general welfare. This is the
tax
system
is
second reason the
U.S.
unconstitutional.

5
Section 6330, providing jurisdiction in the
tax court, did not contemplate that the U.S. tax
system itself would be found to have an
unconstitutional individually enforceable protected
speech component. First Amendment and Fifth
Amendment Due Process considerations rule here
to enable a petitioner a taxpayer to get redress in
the tax court where there an enforcement action
taken, no matter of what kind, which violates the
First Amendment.
Indeed, the Janus tax is enforced in exactly
the same manner as the U.S. tax system, with the
same element of coercion and the same effect of
To the point, the
generating government.
“complaint” procedure of Janus is identical to the
Collection Due Process procedure set out in 26 USC
6330. Indeed, the Janus procedure seems to have
been modeled on Section 6330, so completely do the
two procedures align. There can be no doubt that
the Courts had jurisdiction to hear Janus’ First
Amendment violation complaint, and no doubt that
the tax court had jurisdiction to hear the
implications of Janus fox the U.S. tax system.
The overarching consideration is that the
Illinois “fee” is a system which is government
itself—from the assessment of the fee, through
collection of it, through the protest process against
it. Janus was not denied access to the Courts
because he alleged a First Amendment violation—
which is Petitioner’s case. This Court goes to great
lengths to show that everything about the Illinois
“fee” is part of a scheme which effects general
welfare results. Why does the Court do this? In
order
to
show
that
Janus himself is
unconstitutionally excluded from government. The
Court concluded that that exclusion, including
jurisdiction in the Courts, is simply impossible

6
under the Constitution. Here are those compelling
facts, as laid out by the Court in Janus“In addition to affecting how public money is
spent, union speech in collective bargaining
addresses many other important matters. As
the examples offered by respondents’ own
amici show, unions express views on a wide
range of subjects—education, child welfare,
healthcare, and minority rights, to name a
few. See, e.g., Brief for American Federation
of Teachers as Amicus Curiae 15—27; Brief
for Child Protective Service Workers et al. as
Amici Curiae 5—13; Brief for Human Rights
Campaign et al. as Amici Curiae 10—17; Brief
for National Women’s Law Center et al. as
Amici Curiae 14-30. What unions have to
say on these matters in the context of
collective bargaining is of great public
importance.
Take the example of education, which was
the focus of briefing and argument in
Friedrichs. The public importance of
subsidized union speech is especially
apparent in this field, since educators make
up by far the largest category of state and
local government employees, and education
is typically the largest component of state
and local government expenditures. Speech
in this area also touches on fundamental
questions of education policy. Should teacher
pay be based on seniority, the better to
retain experienced teachers? Or should
schools adopt merit pay systems to
encourage teachers to get the best results out
of their students? Should districts transfer

7
more experienced teachers to the lower
performing schools that may have the
greatest need for their skills, or should those
teachers be allowed to stay where they have
put down roots? Should teachers be given
tenure protection and, if so, under what
conditions? On what grounds and pursuant
to what procedures should teachers be
subject to discipline or dismissal? How
should teacher performance and student
progress be measured—by standardized tests
or other means?
Unions can also speak out in collective
bargaining on controversial subjects such as
climate change, the Confederacy, sexual
orientation and gender identity, evolution,
and minority religions. These are sensitive
political topics, and they are undoubtedly
matters of profound ‘“value and concern to
the public.”’ Snyder v. Phelps, 562 U. S. 443,
453 (2011). We have often recognized that
such speech “‘occupies the highest rung of
the hierarchy of First Amendment values’”
and merits “‘special protection.’” Id., at 452.”
Slip op. at 29-31. Emphases added.
Under Janus, Section 6330 jurisdictional
considerations are simply an attempt to preserve
an unconstitutional tax system. Indeed, Section
6330 is part of the entire governmental system
which Janus condemns in such loving detail. The
Court makes it clear that the Janus tax legislates,
from start to finish, for the general welfare not
because the matters it affects are important public
matters, but because it effects results with respect

8
Janus is excluded from
to those matters,
government, and, of course, that is also what
Justice Kagan says—only she says that, under the
scrutiny regime, he should be excluded from
government and should be made to abide by
minimum scrutiny for taxation. But the scrutiny
regime is problematic under Janus. This Court
should note that the Janus Court raises the level of
scrutiny for taxation ABOVE minimum scrutiny.
Janus makes taxation an individually enforceable
right. This is what so alarms Justice Kagan.
The Court makes it clear that the Janus tax
is not advocacy or support of advocacy—the tax
plays a vital role in the process of bringing general
welfare results into effect. The Janus scheme is
government, pure and simple.
The Court is
emphatic on this point. That the Janus tax is
government, and that Janus is excluded from
government, is the reason the Court finds an
individually
enforceable
protected
speech
component in taxation.
III.
Taxation enjoys a higher level of scrutiny
than minimum scrutiny.
Justice Kagan—a firm scrutiny regime
supporter—is highly alarmed that the Court finds
an individually enforceable protected speech
component in taxation. Why? Because under the
scrutiny regime, taxation enjoys only minimum
scrutiny. Indeed, the Court has never previously
found a tax which contained an individually
enforceable protected speech component.
If a tax contains an individually enforceable
protected speech component, then the tax enjoys a
level of scrutiny higher than minimum scrutiny.
And the scrutiny regime? What then happens to

9
that? Well, it’s in big trouble, because, as Justice
Kagan correctly points out, speech is everywhere.
It’s a part of every fact held at minimum scrutiny
by the scrutiny regime. And since the U.S. tax
system is government and legislates for the general
welfare, the protected speech component is a part of
every scrutiny regime fact, raising the level of
Constitutional scrutiny for every fact now held at
minimum scrutiny. There is nothing in Janus
limiting its applicability, and petitions are now
before the Court extending Janus—contending that
the “fee” extracted by violating protected speech,
cannot be retained by the violators (and they are
right). Taxation is now an individually enforceable
right, enjoying a higher level of scrutiny than
minimum scrutiny.
CONCLUSION
The Court should grant the petition for
certiorari, and after review, remand the case to the
Tax Court, instructing the Tax Court to require the
Commissioner to present to the Tax Court as
taxation scheme for the United States which does
not legislate for the general welfare, does not
contain an individually enforceable protected
speech component, and enforces taxation at a
higher level of scrutiny than minimum scrutiny.
Respectfully submitted,
John Ryskamp
Petitioner
1677 Arch St.
Berkeley, CA 94709
(510) 8486898

